APPENDIX

TABLE OF CONENTS

APPENDIX A - U.S. Court of Appeals for the Fourth
Circuit, Court of Appeals Decision- Judge Wilkinson,
Judge Harris and Senior Judge Hamilton (May 7,
2019)
………………………………..1a
U.S. Court of Appeals for the Fourth Circuit, Opinion
Denying Petition for Panel Rehearing-Judge
Wilkinson, Judge Harris and Senior Judge Hamilton
(July 12, 2019)
………………………………7a
U.S. District Court for the District of Maryland, Order
(February 5, 2018) ………………………………8a
U.S. District Court for the District of Maryland, Order
Denying Motion for Reconsideration
(July 16, 2018)
………………………………19a
APPENDIX B
7 U.S.C. §2021

………………………………..1b

7 U.S.C. §2023

………………………………..13b

7 C.F.R. §271.2

………………………………..18b

7 C.F.R. §278.6

………………………………..19b

1a

APPENDIX A
United States Court of Appeals For the Fourth
Circuit
772 Fed.Appx. 34
ISRAEL K. NEGASH, an individual; ETHIO, INC.,
A MARYLAND CORPORATION d/b/a Sunoco
Food Mart,
Plaintiff-Appellants, v.
UNITED STATES OF AMERICA,
Defendant-Appellee.

No. 18-1869
Submitted: March 26, 2019
Decided: May 7, 2019

Appeal from the United States District Court of
Maryland, at Baltimore. Richard D. Bennett, District
Judge. (1:17-cv-01954-RDB)

2a

OPINION
Affirmed by unpublished per curiam opinion.
Unpublished opinions are not binding precedent in
this circuit.
PER CURIAM:
Israel K. Negash and Ethio, Inc. (collectively,
Appellants), filed a petition pursuant to 7 U.S.C. §
2023 (2012), seeking judicial review of the United
States Department of Agriculture (USDA)’s decision
to permanently disqualify them from participating in
the Supplemental Nutrition Assistance Program
(SNAP). The district court granted the USDA’s motion
for summary judgment and denied the Appellants’
Fed. R. Civ. P. 59(e) motion. The Appellants contend
that the district court erred in granting summary
judgment prior to discovery. We affirm the district
court’s orders.
We “review[ ] de novo the district court’s order
granting summary judgment.” Jacobs v. N.C. Admin.
Office of the Courts, 780 F.3d 562, 565 n.1 (4th Cir.
2015). “A district court ‘shall grant summary
judgment if the movant shows that there is no genuine
dispute as to any material fact and the movant is
entitled to judgment as a matter of law.’ ” Id. at 568
(quoting Fed. R. Civ. P. 56(a)). “A dispute is genuine if
a reasonable jury could return a verdict for the
nonmoving party.” Id. (internal quotation marks
omitted). In determining whether a genuine dispute of
material fact exists, “we view the facts and all
justifiable inferences arising therefrom in the light
most favorable to ... the nonmoving party.” Id. at 565
n.1 (internal quotation marks omitted). However, “the

3a

nonmoving party must rely on more than conclusory
allegations, mere speculation, the building of one
inference upon another, or the mere existence of a
scintilla of evidence.” Dash v. Mayweather, 731 F.3d
303, 311 (4th Cir. 2013).
“We review a district court’s denial of a Rule
56(d) motion for abuse of discretion.” Pisano v. Strach,
743 F.3d 927, 931 (4th Cir. 2014). We will not reverse
the denial of a Rule 56(d) motion absent a clear abuse
of discretion or a real possibility that the denial of
discovery resulted in prejudice to the moving party.
Strag v. Bd. of Trs., 55 F.3d 943, 954 (4th Cir. 1995).
Relief under Rule 56(d) is “broadly favored and should
be liberally granted in order to protect non-moving
parties from premature summary judgment motions.”
McCray v. Md. Dep’t of Transp., 741 F.3d 480, 484 (4th
Cir. 2014) (internal quotation marks omitted).
However, “a court may deny a Rule 56(d) motion when
the information sought would not by itself create a
genuine issue of material fact sufficient for the
nonmovant to survive summary judgment.” Pisano,
743 F.3d at 931.
“Congress has been quite firm in ensuring that
[SNAP benefits] are used only to purchase eligible
food items, and are not exchanged for cash or other
things of value.” Idias v. United States, 359 F.3d 695,
697 (4th Cir. 2004) (internal quotation marks
omitted). “[A] store that is caught trafficking in food
stamps even one time must be permanently
disqualified from [SNAP], unless the Secretary of
Agriculture determines that the store had in place an
effective anti-trafficking policy.” Id. Trafficking is
defined, as relevant here, as *36 “buying, selling,
stealing or otherwise effecting an exchange of SNAP
benefits issued and accessed via [EBT] cards ... for

4a

cash or consideration other than eligible food, either
directly, indirectly, in complicity or collusion with
others, or acting alone.” 7 C.F.R. § 271.2 (2018). An
aggrieved party may seek judicial review of the
USDA’s finding that it trafficked in benefits. 7 U.S.C.
§ 2023(a)(13). Unlike most judicial review of agency
action, review of the USDA’s trafficking
determination is de novo, and is not limited to the
administrative record. 7 U.S.C. § 2023(a)(15).
We conclude that the district court did not
abuse its discretion in granting summary judgment
prior to discovery. On appeal, the Appellants seek
primarily two pieces of information—the identities of
the stores the USDA compared the Appellants’ store’s
sales to (“the comparison stores”) and the identity of
the households whose transactions the USDA
identified as suspicious. As to the comparison stores,
the Appellants contend that this information is
necessary for them to discover whether they were
appropriate comparators. For the household
information, the Appellants argue they could use this
information to obtain affidavits or depose them to
discover the reasons for their shopping habits.
While this information would have been useful,
the Appellants did not seek this information in the
district court. Absent exceptional circumstances, we
will not consider issues raised for the first time on
appeal. See In re Under Seal, 749 F.3d 276, 285 (4th
Cir. 2014). In the district court, the Appellants only
sought the identity of the households to demonstrate
that they shopped at their store because of their
selection of ethnic food. This evidence cannot create a
genuine dispute of material fact given the objective
evidence in the record demonstrating that the store’s
inventory was similar to that of a normal convenience

5a

store—the pictures taken by the USDA’s inspector
and the invoices submitted by the Appellants. See
Scott v. Harris, 550 U.S. 372, 380, 127 S.Ct. 1769, 167
L.Ed.2d 686 (2007) (“When opposing parties tell two
different stories, one of which is blatantly
contradicted by the record, so that no reasonable jury
could believe it, a court should not adopt that version
of the facts for purposes of ruling on a motion for
summary judgment.”).
As to the comparison stores, in the district court
the Appellants only sought the transaction data for
the stores the USDA compared their store to.
However, this information would not have created a
genuine dispute of material fact. While the USDA did
not reveal the identities of the comparison stores, the
administrative record contains their EBT sales data
and they were all located within one mile of the
Appellants’ store. Additionally, the administrative
record shows that several of the Appellants’ store’s
customers also used their EBT benefits at larger
grocery stores and supermarkets, rebutting their
contention that their customers lacked transportation
to such businesses. To the extent that the Appellants
seek this information to argue that they have a more
superior grocery selection than the comparison stores,
the record clearly refutes their argument that they
were anything other than a normal convenience store.
While a court considering a summary judgment
motion must give the nonmoving party the benefit of
all reasonable inferences, the Appellants instead ask
us to abandon common sense—the USDA rightfully
concluded that there is no logical explanation for 72
individuals spending over $100 on convenience store
items when the Appellants’ store does not have a
single shopping cart or basket, households *37 were

6a

visiting larger grocery stores in addition to the
Appellants’ store, and suspicious transactions quickly
decreased once the Appellants were on notice that
their sales were under investigation.
Accordingly, we affirm the district court’s
orders. We dispense with oral argument because the
facts and legal contentions are adequately presented
in the materials before this court and argument would
not aid the decisional process.
AFFIRMED

7a

United States Court of Appeals For the Fourth
Circuit
772 Fed.Appx. 34
ISRAEL K. NEGASH, an individual; ETHIO, INC.,
A MARYLAND CORPORATION d/b/a Sunoco
Food Mart,
Plaintiff-Appellants, v.
UNITED STATES OF AMERICA,
Defendant-Appellee.

No. 18-1869 (1:17-cv-01954-RDB)
ORDER
The Court denied the petition for rehearing.
Entered at the direction of the panel: Judge
Wilkinson, Judge Harris and Senior Judge Hamilton.
For the Court
/s/ Patricia S. Conner, Clerk

8a

United States District Court District of Maryland
2018 WL 722481
ISRAEL K. NEGASH, et al.,
Plaintiff, v.
UNITED STATES OF AMERICA,
Defendant.

1:17-cv-01954-RDB
Signed February 5th, 2018
MEMORANDUM
Richard D. Bennett, United States District Judge
Plaintiffs Israel K. Negash and Ethio, Inc.,
d/b/a Sunoco Food Mart, bring this action against
defendant United States of America under 7 U.S.C.
§ 2023, asking the court to set aside the Food &
Nutrition Service's decision to permanently disqualify
them from participating in the Supplemental
Nutrition Assistance Program as a retailer. Now
pending is defendant's motion to dismiss or, in the
alternative, for summary judgment. The parties have
fully briefed the issues, and no oral argument is
necessary. See Local Rules 105.6. For the reasons
set forth below, defendant's motion is treated as a
motion for summary judgment and granted.

9a

BACKGROUND
Plaintiff Israel K. Negash (“Negash”) is the
owner and operator of Ethio, Inc., d/b/a Sunoco Food
Mart (“the Store”) in Baltimore, Maryland. (ECF No.
1, ¶ 1). The Store began participating in the
Supplemental
Nutrition
Assistance
Program
(“SNAP”), formerly known as Food Stamps, in May
2001. (ECF No. 9–2; Administrative Appeal Record
(“A.R.”) 1).
The SNAP Program
SNAP is a government program operated by the
Food & Nutrition Service (“FNS”), a component of the
United States Department of Agriculture (“USDA”).
See 7 C.F.R. § 271.3. SNAP is operated pursuant to 7
U.S.C. §§ 2011–2036. The purpose of SNAP is to
provide food to low income individuals. See 7 U.S.C.
§ 2011. SNAP beneficiaries are awarded benefits in
the form of an Electronic Benefits Transfer (“EBT”)
card, which is akin to a debit card and can be used
only for the purchase of food and certain other
eligible items sold by approved SNAP retailers. See
id. §§ 2013(a), 2016(j); see also 7 C.F.R. 271.2.
SNAP retailers are governed by certain
regulations. See 7 C.F.R. § 278.6. Pursuant to those
regulations, the FNS can permanently disqualify a
SNAP retailer that it finds is “trafficking” in SNAP
benefits. Id. “Trafficking” is defined in pertinent part
as “buying, selling, stealing or otherwise effecting an
exchange of SNAP benefits issued and accessed via
(EBT) cards ... for cash or consideration other than
eligible food, either directly, indirectly, in complicity
or collusion with others, or acting alone.” 7 C.F.R. §
271.2.
A finding of trafficking must be

10a
based on evidence, which “may include facts established
through on-site investigations, inconsistent redemption
data, [and] evidence obtained through a transaction report
under an electronic benefit transfer system ” 7 C.F.R. §
278.6(a). If a retailer is found to

be trafficking in SNAP benefits, the retailer is
permanently disqualified from participation in SNAP.
Id. FNS may impose a civil money penalty (“CMP”) in
lieu of permanent disqualification only where the
retailer requests consideration of this alternative
penalty within ten days, 7 U.S.C. § 278.6(b)(2)(iii), and
where the retailer can meet certain other criteria
designed to demonstrate that a rogue employee
engaged in trafficking despite the best efforts of the
retailer. See 7 U.S.C. § 278.6(i).
The regulations provide for a system of
administrative and judicial review of an FNS decision
to disqualify a SNAP retailer. See 7 U.S.C. § 2023(a);
7 C.F.R. §§ 279. First, the FNS must send the retailer
written notice of its initial decision. 7 U.S.C. §
2023(a)(1). Upon receipt of the written notice, the
retailer may ask the FNS to review the initial
decision. 7 C.F.R. § 279.1. If requested, the FNS must
review the initial decision and render a final agency
decision. Id. at 279.5. After receiving notice of a Final
Agency Decision, a retailer may seek judicial review
in a state or federal court. See 7 U.S.C. § 2023(a)(13);
7 C.F.R. § 279.7.
The Facts Of This Case
In this case, the FNS's electronic alert
system indicated that the Store's EBT data was
consistent with possible trafficking in EBT
benefits between February and July 2016. (A.R.
72). As a result, the FNS Retailer Operations

11a

Division (“ROD”) began an investigation into the
Store. Id. An individual from the ROD visited the
Store on June 18, 2016. (A.R. 30– 35). The ROD also
compared the Store's transactions to those of other
stores in the area, including four other convenience
stores within a one-mile radius. (A.R. 79–82). The
ROD then analyzed all of the information gathered
during its investigation and determined that the
transactions discovered by the EBT data were, in
fact, suspicious. (A.R. 85–87). The Store's suspicious
transactions fell into three categories: (1) rapid and
repetitive transactions in a short period of time from
the same household (A.R. 88–91); (2) transactions
involving the depletion of the majority or all of a
household's benefits in a short timeframe (A.R. 92–
94); (3) high dollar transactions (A.R. 95–100).
These transactions were inconsistent with the
transactions at other similarly situated
SNAP
retailers. (A.R. 79–84).
On August 11, 2016, the FNS sent a letter to
Negash informing him that the Store was being
charged with trafficking under 7 C.F.R. § 271.2.
(A.R. 85–87). The letter stated that Negash had a
right to explain the suspicious charges and a right—
within ten days—to request a CMP (“Civil Money
Penalty”) in lieu of permanent disqualification. (A.R.
86–87).
Negash, through his attorney, replied to the
charge letter, requesting additional time to respond.
(A.R. 103). He acknowledged that in so doing he was
forfeiting the right to be considered for a CMP. Id.
Eventually, Negash responded to the substantive
allegations, offering a litany of explanations for the
suspicious transactions. (A.R. 107–115). The

12a

explanations offered by Negash primarily revolved
around the notion that the Store was not a typical
convenience store/gas station, but was instead the
primary grocer for many individuals. See id. The FNS
considered Negash's explanations but found no
evidence the Store was anything but a typical
convenience store, and found that Negash's other
explanations did not account for the suspicious
transactions. (A.R. 188–197). On September 20, 2017,
the FNS issued a determination letter informing
Negash that it found the Store had engaged in
trafficking and that it was therefore permanently
disqualifying the Store from participation in SNAP.
(A.R. 198–99).
Negash sought administrative review of the
decision to disqualify the Store, reiterating many of
the same explanations offered in response to the
initial
charge
letter.
(A.R.
212–226).
An
Administrative Review Officer (“ARO”) of the FNS
reviewed the information submitted by Negash and
then issued a Final Agency Decision on June 13, 2017.
(A.R. 313–329). The ARO found, among other things,
that the Store was simply a typical convenience
store/gas station, and that its inventory did not lend
itself to the many large, suspicious transactions at
issue. (A.R. 323). It also noted that following the
Store's receipt of the initial charge letter there was a
precipitous decline in the number of suspicious
transactions—a fact that was in itself suspicious.
(A.R. 328). Therefore, the ARO upheld both the
decision that “trafficking” had occurred and the
decision to permanently disqualify the Store from the
SNAP program. (A.R. 329). Negash and the Store now
seek judicial review of those decisions.

13a

STANDARDS
Motion To Dismiss Or, In The Alternative, For
Summary Judgment
Defendant has filed a dispositive motion styled
as a motion to dismiss under Fed.R.Civ.P. 12(b)(6) or,
in the alternative, for summary judgment under
Fed.R.Civ.P. 56. It has attached exhibits to its
submissions. (See ECF No. 9). A court “is not to
consider matters outside the pleadings or resolve
factual disputes when ruling on a motion to dismiss.”
Bosiger v. U.S. Airways, 510 F.3d 442, 450 (4th Cir.
2007). If the court does so, “the motion must be treated
as one for summary judgment under Rule 56.”
Fed.R.Civ.P. 12(d). Therefore, a motion styled in this
manner implicates the court's discretion under Rule
12(d) of the Federal Rules of Civil Procedure. See
Kensington Yol. Fire Dept., Inc. v. Montgomery
County, 788 F.Supp.2d 431, 436–37 (D. Md. 2011). A
district judge has “complete discretion to determine
whether or not to accept the submission of any
material beyond the pleadings that is offered in
conjunction with a Rule 12(b)(6) motion and rely on it,
thereby converting the motion, or to reject it or simply
not consider it.” Sager v. Hous. Com'n of Anne Arundel
Cty., 855 F.Supp.2d 524, 542 (D. Md. 2012) (quoting
5C Wright & Miller, Federal Practice & Procedure §
1366, at 159 (3d ed. 2004, 2011 Supp.) ). The court
chooses to consider defendant's submissions and
therefore treats its motion as a motion for summary
judgment.
A motion for summary judgment will be
granted only if there exists no genuine issue as to any
material fact and the moving party is entitled to

14a

judgment as a matter of law. Fed.R.Civ.P. 56(c);
Anderson v. Liberty Lobby, Inc., 477 U.S, 242, 250
(1986); Celotex Corp. v. Catrett, 477 U.S. 317, 322
(1986). A material fact is one that may affect the
outcome of the suit. Anderson, 477 U.S. at 248. In
assessing a motion for summary judgment, the court
must view the facts, and all inferences justifiably
drawn therefrom, in the light most favorable to the
nonmoving party. Matsushita Elec. Indus. Co., Ltd. v.
Zenith Radio Corp., 475 U.S. 574, 587–88 (1986). The
court must decide whether there is a genuine issue for
trial, “not ... weigh the evidence and determine the
truth of the matter.” Anderson, 477 U.S. at 249.
Judicial Review of an FNS Decision to
Disqualify a SNAP Retailer
Judicial review of an FNS decision to disqualify
a retailer from SNAP is to be conducted de novo. 7
U.S.C. § 2023(a)(15). The retailer has the burden of
establishing by a preponderance of the evidence that
the agency determination should be set aside. AJS
Petroleum, Inc. v. United States, 2012 WL 683538, at
*4 (D. Md. Mar. 1, 2012); 2341 E. Fayette St., Inc. v.
United States, 2005 WL 2373696, at * 1 (D. Md. Sept.
26, 2005). In reviewing the agency's decision according
to this standard, the court is not bound by the
administrative record. See, e.g., Kim v. United States,
121 F.3d 1269, 1272 (9th Cir. 1997); Ibrahim v. United
States, 834 F.2d 52, 53–54 (2d Cir. 1987); Modica v.
United States, 518 F.2d 374, 376 (5th Cir. 1975). If the
court determines that no genuine issue of material
fact is presented, it can resolve the issue by way of a
motion for summary judgment. See, e.g., Idias v.
United States 359 F.3d 695 (4th Cir. 2004); Bon

15a

Supermarket & Deli v. United States, 87 F. Supp. 2d
593, 599–600 (E.D. Va. 2000).
If the court concludes that a violation has
occurred, it must then review the penalty issued by
the FNS. See Cross v. United States, 512 F.2d 1212,
1215 (4th Cir. 1975) (“the scope of judicial review
extends to the period of administrative sanction”).
This review is to be conducted according to an
“arbitrary and capricious” standard. See, e.g.,
Mahmood v. United States, 2012 WL 3038638, at *2
(D. Md. July 24, 2012); 2341 E. Fayette St., Inc., 2005
WL 237696, at *1. Thus, if the court finds that
violations in fact occurred, the penalty issued by the
FNS will be upheld unless the decision to impose that
penalty was arbitrary or capricious.
ANALYSIS
I.
The Finding That Trafficking Occurred
The FNS's determination that the Store
engaged in trafficking is supported by the
administrative record and Negash has failed to offer
any credible argument to the contrary. The decision to
hold a SNAP retailer liable for trafficking can be made
even where the retailer is not caught red-handed
exchanging SNAP benefits for cash or consideration
other than eligible food. See, e.g., AJS Petroleum, Inc.
v. United States, 2012 WL 683538, at *5 (D. Md. Mar.
1, 2012). Indeed, the decision can be made based on
“facts established through on-site investigations,
inconsistent
redemption
data,
and
evidence
established through a transaction report under an
electronic benefits transfer system.” See 7 U.S.C. §
2021(a)(2); see also 7 C.F.R. § 278.6(a).

16a

In this case “a transaction report under an
electronic benefits transfer system” indicated that the
Store had engaged in suspicious transactions of three
kinds: (1) rapid and repetitive transactions in a short
period of time from the same household (A.R. 88–91);
(2) transactions involving the depletion of the majority
or all of a household's benefits in a short timeframe
(A.R. 92–94); and (3) high dollar transactions (A.R.
95–100). Based on this electronic alert, the FNS
conducted an investigation into the Store. This
investigation included an “on-site investigation”
which revealed that the store was a typical
convenience store rather than a primary grocer. (See
A.R. 298–99). It also included a comparison of the
Store's transactions to those of similarly situated
stores—including four other convenience stores
within
a
one-mile
radius—which
revealed
“inconsistent redemption data.” (See A.R. 81–82).
In light of these undisputed facts, Negash
clearly overstates the role the electronic alert system
played in the FNS's ultimate decision. (See ECF No.
17–1, pp. 8–9). The electronic alert system triggered
the investigation, but an “on-site investigation” and
“inconsistent redemption data” were considered
before the FNS determined that “trafficking”
occurred. Therefore, the court finds Negash's attacks
on the FNS's use of its electronic alert system wholly
unpersuasive.
Likewise, the court finds Negash's explanations
for the suspicious transactions—largely the same
explanations offered at the administrative review
stage—unpersuasive. The court will not address each
of these explanations seriatim. Instead, the court
points out that Negash has not attempted to explain

17a

II.

the clearest evidence that trafficking occurred,
namely, that the number of suspicious transactions
diminished sharply and precipitously once he learned
the FNS suspected him of trafficking. The FNS sent
Negash an initial charge letter on August 11, 2016.
(A.R. 85–87). Upon receipt of that letter, the number
of balance-depleting transactions diminished from
nearly five per month from February through July
2016 to zero in August 2016 and zero in September
2016. (A.R. 328). The number of excessively-large
transactions diminished from nearly fifty per month
from February through July 2016 to twenty-three in
August 2016 and eight in September 2016. Id. Finally,
the number of rapid and repetitive transactions
diminished from nearly ten per month from February
through July 2016 to six in August 2016 and zero in
September 2016. Id. Absent any explanation to the
contrary, the court draws the only logical conclusion
possible based on this evidence: from February to
August 11, 2016, Negash and the Store were
trafficking in EBT benefits.
The Decision to Impose a Penalty of Permanent
Disqualification
In light of its finding that the Store engaged in
“trafficking,” the FNS's decision to permanently
disqualify the Store from SNAP was not “arbitrary
and capricious.” Permanent disqualification is almost
always the appropriate sanction where a retailer is
caught trafficking in food stamps. See 7 U.S.C. §
2021(b)(3)(B); 7 C.F.R. § 278.6(e)(1)(i). In fact, the
FNS has discretion to impose a CMP instead of a
penalty of permanent disqualification only where a
retailer demonstrates that a rogue employee engaged
in trafficking despite the store's implementation of an

18a

effective compliance policy and program. See 7 U.S.C.
§ 2021(b)(3)(B); 7 C.F.R. § 278.6(i). Negash has not
made such a showing.
Moreover, according to 7 C.F.R. §
278.6(b)(2)(iii), “if a firm fails to request consideration
for a civil money penalty in lieu of a permanent
disqualification
for
trafficking
and
submit
documentation and evidence of its eligibility within
the 10 days specified ... the firm shall not be eligible
for such a penalty.” Negash requested an extension to
file a response to the initial charging letter after the
end of the specified ten-day period. (A.R. 103). He
acknowledged that, “in doing so we will forfeit our
right to request the issuance of a civil money penalty
in lieu of other sanctions.” Id. Thus, Negash explicitly
waived his right to request a CMP, a penalty the FNS
would not have had discretion to impose in any event.
Accordingly, the FNS's decision to permanently
disqualify the Store from SNAP was not “arbitrary
and capricious.”
CONCLUSION
For the foregoing reasons, defendants' motion
for summary judgment is granted. A separate order
follows.

19a

United States District Court District of Maryland
2018 WL 3428716

ISRAEL K. NEGASH, et al.,
Plaintiff, v.
UNITED STATES OF AMERICA,
Defendant.

1:17-cv-01954-RDB
Signed July 16th, 2018
MEMORANDUM OPINION
Richard D. Bennett, United States District Judge
On February 20, 2018, Plaintiffs Ethio, Inc. and Israel
K. Negash (collectively “Plaintiffs”), filed an
Amended Motion for Reconsideration (ECF No. 23)1
based upon this Court’s previous Memorandum
Opinion and Order granting the Defendant United
States of America’s (“Defendant”) Motion for
Summary Judgment. (ECF Nos. 20, 21.) On March 1,
2018, the Defendant filed its Response in Opposition
Plaintiffs' first Motion for Reconsideration is MOOT. (ECF No.
22.)

1

20a

to the Plaintiffs' Motion for Reconsideration, arguing
that the Plaintiffs are not entitled to relief under Rule
59(e) of the Federal Rules of Civil Procedure. (ECF No.
24.) The pending Motion was fully briefed by both
parties and no hearing is necessary. See Local Rule
105.6 (D. Md. 2014). For the reasons that follow,
Plaintiffs' Motion for Reconsideration (ECF No. 23) is
DENIED.2
BACKGROUND
The background facts of this case are set forth in this
Court’s Memorandum Opinion on February 5, 2018.
(ECF No. 20); Negash v. United States, Civ. No. RDB17-1954, 2018 WL 722481 (D. Md. Feb. 5, 2019).
To summarize, Plaintiff Negash (“Negash”) is the
owner and operator of Ethio, Inc., d/b/a Sunoco Food
Mart (“the Store”) in Baltimore, Maryland. Id. at *1.
In May 2001, the Store began participating in the
Supplemental
Nutrition
Assistance
Program
(“SNAP”). Id. Pursuant to regulations governing
SNAP retailers, the Food and Nutrition Service
(“FNS”)3 is authorized to permanently disqualify any
On April 6, 2018, Plaintiffs also submitted an Ex Parte Motion
for Extension of Time to File Appeal fourteen (14) days after
this Court’s entry of the order. (ECF No. 25.) This Motion is
GRANTED.
3 SNAP is a government program operated by the FNS, a
component of the United States Department of Agriculture
(“USDA”). See 7 C.F.R. § 271.3.
2

21a

SNAP retailer that it finds “trafficking”4 SNAP
benefits. See 7 C.F.R. § 278.6.
Between February and July 2016, the FNS
electronic alert system indicated that the Store’s
Electronic Benefits Transfer (“EBT”)5 data was
consistent with possible trafficking in EBT benefits.
Negash, 2018 WL 722481, at *3. As a result, the FNS
Retailer Operations Division (“ROD”) began an
investigation into the Store and subsequently sent an
individual from ROD to visit the Store on June 18,
2016. Id. ROD also compared the Store’s transactions
to those of other stores in the area, including four
other convenience stores within a one-mile radius. Id.
After analyzing all of the information gathered during
its investigation, ROD determined that the
transactions discovered by the FNS electronic system
were, in fact, suspicious, and inconsistent with the
transactions of other similarly situated SNAP
retailers. Id. The Store’s suspicious transactions fell
into three categories: (1) rapid and repetitive
transactions in a short period of time from the same
4 “Trafficking”

is defined in pertinent part as “buying, selling,
stealing or otherwise effecting an exchange of SNAP benefits
issued and accessed via (EBT) cards ... for cash or consideration
other than eligible food, either directly, indirectly, in complicity
or collusion with others, or acting alone.” 7 C.F.R. § 271.2.
5 SNAP beneficiaries are awarded benefits in the form of an
Electronic Benefits Transfer (“EBT”) card, which is akin to a
debit card and can be used only for the purchase of food and
certain other eligible items sold by approved SNAP retailers.
See id. §§ 2013(a), 2016(j); see also 7 C.F.R. 271.2.

22a

household; (2) transactions involving the depletion of
the majority or all of a household’s benefits in a short
timeframe; and (3) high dollar transactions. Id.
On August 11, 2016, the FNS sent a letter to Negash,
informing him that the Store was being charged with
trafficking EBT benefits under 7 C.F.R.
§ 271.2.6 Negash, 2018 WL 722481, at *4. Eventually,
Negash responded to the substantive allegations,
offering a litany of explanations for the suspicious
transactions.7 Id. After inquiring into Negash’s
explanations, FNS found: (1) no evidence the Store
was anything but a typical convenience store; (2) and
Negash’s other explanations did not account for the
suspicious transactions. Id. On September 20, 2017,
the FNS issued a determination letter informing
Negash that it found the Store had engaged in
trafficking SNAP benefits and was therefore
permanently disqualified from participation in SNAP.
Id.
Negash sought an administrative review of the
decision to disqualify the Store, reiterating many of
the same explanations offered in response to the
The letter stated that Negash had a right to explain the
suspicious charges and a right-within ten days-to request a CMP
(“Civil Money Penalty”) in lieu of permanent disqualification. Id.
at *3-4.
7 The explanations offered by Negash primarily revolved around
the notion that the Store was not a typical convenience store/gas
station, but was instead the primary grocer for many individuals.
Id. at *4.
6

23a

initial charge letter. Id. An FNS Administrative
Review Officer (“ARO”) reviewed the information
submitted by Negash and then issued a Final Agency
Decision on June 13, 2017. Id. The ARO found, among
other things, that the Store was simply a typical
convenience store/gas station, and that its inventory
did not lend itself to the many large, suspicious
transactions at issue. Id. It also noted that following
the Store’s receipt of the initial charge letter there was
a precipitous decline in the number of suspicious
transactions—a fact that was in itself suspicious. Id.
Therefore, the ARO upheld both the decision that
“trafficking” had occurred and the decision to
permanently disqualify the Store from the SNAP
program. Id. On July 13, 2017, Negash filed a
Complaint with this Court requesting a judicial
review of the FNS determination. (ECF No. 1.)
STANDARD OF REVIEW
The Federal Rules of Civil Procedure do not expressly
recognize motions for “reconsideration.” Instead, Rule
59(e) authorizes a district court to alter, amend, or
vacate a prior judgment, and Rule 60 provides for
relief from judgment. See Katyle v. Penn Nat'l
Gaming, Inc., 637 F.3d 462, 471 n.4 (4th Cir. 2011),
cert. denied, 132 S. Ct. 115 (2011). As this Court
explained in Cross v. Fleet Reserve Ass'n Pension Plan,

24a

Civ. No. WDQ-05-0001, 2010 WL 3609530, at *2 (D.
Md. Sept. 14, 2010):
A party may move to alter or amend a judgment
under Rule 59(e), or for relief from a judgment under
Rule 60(b). See Fed. R. Civ. P. 59(e) & 60(b). A
motion to alter or amend filed within 28 days of the
judgment is analyzed under Rule 59(e); if the motion
is filed later, Rule 60(b) controls. See Fed. R. Civ. P.
59(e); MLC Auto., LLC v. Town of S. Pines, 532 F.3d
269, 280 (4th Cir. 2008); In re Burnley,
988 F.2d 1, 2-3 (4th Cir. 1992).
(footnote omitted). In this case, Negash timely filed
his Motion for Reconsideration (ECF No. 23) within
twenty-eight (28) days of this Court’s Order granting
Defendant’s Motion for Summary Judgment. (ECF
No. 21.) Thus, Plaintiff Negash’s Motion will be
considered under Rule 59(e).
The United States Court of Appeals for the Fourth
Circuit has repeatedly recognized that a final
judgment8 may be amended under Rule 59(e) in only
three circumstances: (1) to accommodate an
intervening change in controlling law; (2) to account
for new evidence not available at trial; or (3) to correct
Rule 59(e) applies only to final judgments.
See Fayetteville Investors v. Commercial
Builders, Inc., 936 F.2d 1462, 1469
(4th Cir. 1991)

8

25a

a clear error of law or prevent manifest injustice. See,
e.g., Gagliano v. Reliance Standard Life Ins. Co., 547
F.3d 230, 241 n.8 (4th Cir. 2008); see also Fleming v.
Maryland National Capital Park & Panning
Commission, Civ. No. DKC-11-2769, 2012 WL
12877387, at *1 (D. Md. Mar. 8, 2012). A Rule 59(e)
motion “may not be used to relitigate old matters, or
to raise arguments or present evidence that could
have been raised prior to entry of judgment.” Pac. Ins.
Co. v. Am. Nat'l Fire Ins. Co., 148 F.3d 396, 403 (4th
Cir. 1998); see also Kelly v. Simpson, Civ. No. RDB-164067, 2017 WL 4065820, at *1 (D. Md. Jan. 26, 2017).
Moreover, “[t]he district court has considerable
discretion in deciding whether to modify or amend a
judgment.” Fleming, 2012 WL 12877387, at *1.
ANALYSIS
Plaintiff Negash alleges that this Court’s Order
granting Defendant’s Motion for Summary Judgment
was improper because: (1) summary judgment was
granted without affording Negash an opportunity for
discovery; and (2) the correlation between the
electronic alert system’s transaction patterns and
EBT trafficking was accepted “despite no evidence
being presented to establish a connection.” (ECF No.
23.) Negash claims he was “entitled” to discovery
before this Court made its ruling because “material
issues of fact [still] remain[ed] for evidentiary

26a

presentation” and discovery was necessary in order to
“fully review the allegations brought against [him]”
and to “gather evidence to rebut the allegations.” (Id.
at 4, 6.) Negash also contends that he has “repeatedly
disputed that the ALERT system’s transaction
patterns have any relevant relation to trafficking” and
criticizes this Court for “accept[ing] this correlation
despite no evidence being presented to establish such
a connection ....” (Id. at 8.) In addition, Negash now
proceeds to add a new claim that the Store’s
permanent disqualification from SNAP violated his
“right to Substantive Due Process under the Fifth
Amendment.” (Id. at 9.)
A.
Relitigating Previous Arguments Under
Rule 59(e)
As explained previously, a Rule 59(e) motion “may
not be used to relitigate old matters, or to raise
arguments or present evidence that could have been
raised prior to entry of judgment.” Pac. Ins. Co., 148
F.3d at 403; see also Kelly, 2017 WL 4065820, at *1.
Here, Plaintiff Negash’s demands for discovery and
his contentions questioning the relationship between
the electronic alert system data and EBT trafficking
were previously raised and considered by this Court
in Plaintiffs' Response in Opposition to Defendant’s
Motion for Summary Judgment. (ECF No. 17.) After
Negash’s arguments were assessed, this Court found
“that the Store engaged in trafficking is supported by

27a

the administrative record and [Plaintiffs] ha[ve] failed
to offer any credible argument to the contrary.”
Negash, 2018 WL 722481, at *3, 4. In addition, this
Court also found Negash’s “attacks on the FNS’s use
of its electronic alert system [to be] wholly
unpersuasive.” Id. at *4. Therefore, Negash’s request
for relief under Rule 59(e) is improper because it
“merely reiterates arguments [the] Court previously
rejected in its Memorandum Opinion[.]” Redner’s
Markets, Inc. v. Joppatown G.P. Ltd. P’ship, Civ.
No. RDB-11-1864, 2013 WL 5274356, at *8 (D. Md.
Sept. 17, 2013).
B.

Presentation of New Argument

Negash also attempts to raise a new claim that the
Store’s permanent disqualification from SNAP
violated his rights to due process. (ECF No. 23 at 910.) However, unlike previous complaints seeking de
novo judicial review of FNS’s permanent
disqualification of a SNAP retailer, Negash’s onecount Complaint did not allege that the Store’s
permanent disqualification from SNAP violated
Negash’s substantive due process rights. (ECF No. 1.)
See, e.g., Hanif v. United States, Civ. No. H-15-2718,
2017 WL 447465, at *7 (S.D. Tex. Feb. 2, 2017);
Alhalemi, Inc. v. United States, 224 F. Supp. 3d 587,
589 (E.D. Mich. 2016); Duchimaza v. United States,
211 F. Supp. 3d 421, 440 (D. Conn. 2016). Although
Negash referenced due process in his Response in
Opposition to Defendant’s Motion for Summary

28a

Judgment, he did not apply the factors implicated in
a substantive due process claim nor did he reference
any case law. (ECF No. 17 at 5, 6, 23, 24.) Because this
due process claim could have been raised previously,
Negash is barred from now bringing it under Rule
59(e). See, e.g., Pac. Ins. Co., 148 F.3d at 404 (“Rule
59(e) may not be used to raise new arguments ... that
could have been raised prior to judgment”); Kelly,
2017 WL 4065820, at *1 (D. Md. Jan. 26, 2017) (“[T]he
Fourth Circuit has cautioned that a party may not use
a Rule 59(e) motion to raise arguments which could
have been raised prior to the issuance of the judgment
....”) (internal quotation marks omitted).
C.
No Clear Error of Law or Manifest
Injustice
Further, relief is not necessary to “correct a clear
error of law or prevent manifest injustice.”9 See, e.g.,
Gagliano, 547 F.3d at 241 n.8; see also Fleming,
2012 WL 12877387, at *1. This Court has emphasized
that “[c]lear error or manifest injustice occurs where a
court has patently misunderstood a party, or has
made a decision outside the adversarial issues
presented to the Court by the parties, or has made an
Plaintiff Negash fails to explain on which of the limited grounds
for reconsideration his Motion is based. (ECF No. 23.) Because
Negash does not assert an intervening change in controlling law
or present newly discovered evidence, presumably he contends
that this Court must “correct clear error of law or prevent
manifest injustice.” See, e.g., Gagliano, 547 F.3d at 241 n.8; see
also Fleming, 2012 WL 12877387, at *1.

9

29a

error not of reasoning but of apprehension

” Wagner

v. Warden, Civ. No. ELH-14-791, 2016 WL 1169937,
at *3 (D. Md. Mar. 24, 2016) (internal quotation marks
omitted). “When a party argues that Rule 59(e) relief
is necessary to correct a clear error of law or to prevent
manifest injustice, mere disagreement with the
Court’s previous decision will not suffice.” June v.
Thomasson, Civ. No. GLR-14-2450, 2016 WL 7374432,
at *3 (D. Md. Dec. 20, 2016). Instead, to justify
altering or amending a judgment on this basis, “the
prior judgment cannot be ‘just maybe or probably
wrong; it must ... strike the court as wrong with the
force of a five-week-old, unrefrigerated dead fish.’ ” Id.
(quoting Fontell v. Hassett, 891 F. Supp. 2d 739, 741
(D. Md. 2012) ); see also Bellsouth Telesensor v. Info.
Sys. & Networks Corp., 65 F.3d 166 (4th Cir. 1995). In
other words, the Court’s previous judgment must be
“dead wrong.” See TFWS, Inc. v. Franchot, 572 F.3d
186, 194 (4th Cir. 2009). “In general, reconsideration
of a judgment after its entry is an extraordinary
remedy which should be used sparingly.” Id. (internal
citations and quotation marks omitted); see also
Jarvis v. Berryhill, Civ. No. TMD-15-2226, 2017 WL
467736, at *2 (D. Md. Feb. 3, 2017).
Negash is not “entitled” to discovery in this case.
In fact, Negash had the opportunity to provide
evidence rebutting the FNS’s determination. See
Negash, 2018 WL 722481, at *4 (“[This] [C]ourt finds

30a

Negash’s
explanations
for
the
suspicious
transactions—largely the same explanations offered
at the administrative review stage—unpersuasive.”).
In Negash’s Motion, he cites H.T. Saunders vs. United
States, 507 F.2d 33 (6th Cir. 1974), as “one of the more
well outlined SNAP review cases,” which “outline[s]
what task rests before the District [C]ourt.” (ECF No.
23 at 2-3.) In that case, the Sixth Circuit concluded
that:
“Since

the

procedures

followed

at

the

administrative level do not provide for discovery
or testing the evidence of the Department of
Agriculture by cross- examination, it is particularly
important that an aggrieved person who seeks
judicial review in a trial de novo not be deprived of
these traditional tools unless it is clear that no issue
of fact exists.”
H.T. Saunders, 507 F.2d 33 at 36 (emphasis added).
Here, this Court concluded that no issue of fact existed
when the determination of FNS “that the Store
engaged in trafficking [was] supported by the
administrative record and [Plaintiffs] had failed to
offer any credible argument to the contrary.” See
Negash, 2018 WL 722481, at *3. Additionally, the
types of discovery Negash seeks would not create a
genuine issue of material fact. Negash contends that

31a

he is entitled to discover the identities of households
whose EBT data was contained in the administrative
record in addition to the identities of the comparison
stores. (ECF No. 23 at 3, 5, 6, 7, 9.) However, Negash
fails to articulate how these identities will create any
dispute of material fact as to each of the hundreds of
suspicious transfers that FNS identified.10 This Court
has continually granted pre-discovery judgment in
favor of the United States in numerous SNAP cases
and therefore, Plaintiff Negash’s demand for
discovery fails. See 7-Eleven, Inc. v. United States, Civ.
No. GLR-15-0543, 2016 WL 5107129, at *3-4 (D. Md.
Jan. 29, 2016); Mahmood v. United States, Civ. No.
WMN-12-0228, 2012 WL 3038638, at *1 n.4; AJS
Petroleum, Inc. v. United States, Civ. No. L-11-1085,
2012 WL 683538, at *5 (D. Md. Mar. 1, 2012); Bernal
Deli Grocery v. United States, Civ. No. MJG-10-1761
(D. Md. Aug. 26, 2011).

10 Additionally, Negash’s reliance on Randallstown International
Market, LLC v. United States, Civil No. GLR-16-4050 (D. Md.
Dec. 20, 2016)—currently pending in this Court—is misguided.
Negash relies on Randallstown as a case in which this Court
“permitted discovery,” contending that if this Court “had ruled
[in Randallstown] the way that this Court has [in this case], the
plaintiffs in that matter would never have had an opportunity to
discover ... bias and problems with the Defendant’s judgment.”
(ECF No. 23 at 8.) However, in Randallstown, this Court did not
“permit” or “rule” that the plaintiffs in that case were entitled to
discovery, but rather plaintiffs conducted discovery after the
United States filed an answer to the complaint. See
Randallstown, Civil No. GLR-16-04050.

32a

This
Court
also
finds
Plaintiff
Negash’s
argument criticizing the correlation between the
electronic alert system’s transaction patterns and
EBT trafficking unavailing. Pursuant to 7 U.S.C. §
2021(a)(2), federal regulations may provide criteria
for the “disqualification of ... a retail food store ... on
the basis of evidence that may include facts
established through ... inconsistent redemption data,
or evidence obtained through a transaction report
under an electronic benefit transfer system.” See 7
C.F.R. § 276.8(a). Further, the Fourth Circuit has also
allowed the Government to rely on EBT transaction
reports as circumstantial evidence “[t]o prove that
trafficking has taken place.” ANS Food Market v.
United States, Civil No. JKB-14-2071, 2015 WL
1880155, at *2 (D. Md. Apr. 22, 2015); see also Idias v.
United States, 359 F.3d 695 (4th Cir. 2004).
Additionally, while the electronic alert system
triggered the investigation, an “on-site investigation”
and “inconsistent redemption data” were considered
before the FNS determined that “trafficking”
occurred. Negash, 2018 WL 722481, at *4. Although
Negash admits that an “on-site inventory”11 was
Plaintiff Negash contends “there was no on-site investigation,”
but then admits “there was an on-site inventory that was
conducted ....” (ECF No. 23 at 5.) However, it has been
established on the record that a contractor for FNS conducted a
store visit in June 2016, to which the Plaintiffs consented. See
Administrative Record, ECF No. 9-2 at 30-31.)

11

33a

conducted, he emphasizes that no violations were
observed. (ECF No. 23 at 5.) However, as this Court
previously stated, the “decision to hold a SNAP
retailer liable for trafficking can be made even where
the retailer is not caught red-handed exchanging
SNAP benefits for cash or consideration other than
eligible food.” Negash, 2018 WL 722481, at *3 (citing
AJS Petroleum, 2012 WL 683538, at *5) (emphasis
added). In this case, given the fully developed
administrative record, together with Negash’s
inability to present a genuine dispute of material fact,
Defendant was entitled to summary judgment in its
favor. See AJS Petroleum, 2012 WL 683538, at *5
(“Because additional discovery would not change the
factual landscape in this case, an analysis under the
summary judgment standard is appropriate.”).
Finally, even if Negash had raised a substantive dueprocess argument previously, the Fourth Circuit has
held that the SNAP- disqualification scheme is
constitutional on substantive due-process grounds.
See Traficanti v. United States, 277 F.3d 170, 174
(4th Cir. 2000) (rejecting plaintiff’s procedural and
substantive due process claims with regard to its
permanent disqualification from the food stamp
program); Bon Supermarket & Deli v. United States,
87 F. Supp. 2d 593, 604 (E.D. Va. 2000) (finding that
“the permanent disqualification is rationally related
to the purposes of

34a

the food stamp program and, therefore, does not
violate plaintiffs' substantive due process rights.”).
Nor could Negash argue that pre-discovery summary
judgment violated his substantive due-process rights.
This Court has held several times that pre-discovery
summary judgment is appropriate where the
administrative record supports the conclusion that a
SNAP retailer was trafficking in benefits. See 7Eleven, Inc., 2016 WL 5107129, at *3-4 (D. Md. Jan.
29, 2016); Mahmood, 2012 WL 3038638, at *1 n.4;
AJS Petroleum, Inc., 2012 WL 683538, at *5; Bernal
Deli Grocery, Civ. No. MJG-10-1761 (D. Md. Aug. 26,
2011). In sum, Plaintiff Negash has failed to bring
forth issues that rise to the level of a “clear error of
law” or reflect a “manifest injustice,” and his Motion
for Reconsideration (ECF No. 23) is DENIED.
CONCLUSION
For the foregoing reasons, Plaintiffs' Motion for
Reconsideration (ECF No. 23) as to this Court’s
Memorandum and Order granting summary
judgment in Defendant’s favor is DENIED. Plaintiffs'
Ex Parte Motion for Extension of Time to File Appeal
(ECF No. 25) fourteen (14) days after the date of this
Court’s Order is GRANTED. A separate order
follows.

1b

APPENDIX B
7

U.S.C.

§2021.

CIVIL

PENALTIES

AND

DISQUALIFICATION OF RETAIL FOOD STORES
AND WHOLESALE FOOD CONCERNS.
(a) Disqualification
(1) In general
An approved retail food store or wholesale food
concern that violates a provision of this chapter
or a regulation under this chapter may be-(A) disqualified for a specified period of
time from further participation in the
supplemental nutrition assistance
program;
(B) assessed a civil penalty of up to
$100,000 for each violation; or
(C) both.
(2) Regulations
Regulations promulgated under this chapter
shall provide criteria for the finding of a
violation of, the suspension or disqualification of
and the assessment of a civil penalty against a
retail food store or wholesale food concern on
the basis of evidence that may include facts
established through on-site investigations,
inconsistent redemption data, or evidence
obtained through a transaction report under an
electronic benefit transfer system.
(b) Period of disqualification

2b

Subject to subsection (c), a disqualification under
subsection (a) shall be-(1) for a reasonable period of time, not to exceed 5
years, upon the first occasion of disqualification;
(2) for a reasonable period of time, not to exceed 10
years, upon the second occasion of disqualification;
(3)

permanent upon--

(A) the third occasion of disqualification;
(B) the first occasion or any subsequent occasion of
a disqualification based on the purchase of coupons or
trafficking in coupons or authorization cards by a
retail food store or wholesale food concern or a
finding of the unauthorized redemption, use, transfer,
acquisition, alteration, or possession of EBT cards,
except that the Secretary shall have the discretion to
impose a civil penalty of up to $20,000 for each
violation (except that the amount of civil penalties imposed
for violations occurring during a single investigation may
not exceed $40,000) in lieu of disqualification under this
subparagraph, for such purchase of coupons or trafficking
in coupons or cards that constitutes a violation of the
provisions of this chapter or the regulations issued
pursuant to this chapter, if the Secretary determines that
there is substantial evidence that such store or food
concern had an effective policy and

3b

program in effect to prevent violations of the
chapter and the regulations, including evidence that-(i) the ownership of the store or food concern was
not aware of, did not approve of, did not benefit
from, and was not involved in the conduct of the
violation; and
(ii) (I) the management of the store or food concern
was not aware of, did not approve of, did not benefit
from, and was not involved in the conduct of the
violation; or
(II) the management was aware of, approved of,
benefited from, or was involved in the conduct of no
more than 1 previous violation by the store or food
concern; or
(C) a finding of the sale of firearms, ammunition,
explosives, or controlled substance (as defined in
section 802 of Title 21) for coupons, except that the
Secretary shall have the discretion to impose a civil
penalty of up to $20,000 for each violation (except
that the amount of civil penalties imposed for
violations occurring during a single investigation
may not exceed $40,000) in lieu of disqualification
under this subparagraph if the Secretary determines
that there is substantial evidence (including evidence
that neither the ownership nor management of the
store or food concern was

4b

aware of, approved, benefited from, or was involved
in the conduct or approval of the violation) that the
store or food concern had an effective policy and
program in effect to prevent violations of this chapter;
and
(4) for a reasonable period of time to be determined
by the Secretary, including permanent
disqualification, on the knowing submission of an
application for the approval or reauthorization to
accept and redeem coupons that contains false
information about a substantive matter that was a part
of the application.
(c) Civil penalty and review of
disqualification and penalty determinations
(1) Civil penalty
In addition to a disqualification under this section,
the Secretary may assess a civil penalty in an amount
not to exceed $100,000 for each violation.
(2) Review
The action of disqualification or the imposition of a
civil penalty shall be subject to review as provided in
section 2023 of this title.
(d) Conditions of authorization
(1) In general
As a condition of authorization to accept and redeem
benefits, the Secretary may require a retail food store
or wholesale food concern that, pursuant to subsection
(a), has been disqualified for more

5b

than 180 days, or has been subjected to a civil
penalty in lieu of a disqualification period of more
than 180 days, to furnish a collateral bond or
irrevocable letter of credit for a period of not more
than 5 years to cover the value of benefits that the
store or concern may in the future accept and redeem
in violation of this chapter.
(2) Collateral
The Secretary also may require a retail food store or
wholesale food concern that has been sanctioned for a
violation and incurs a subsequent sanction regardless
of the length of the disqualification period to submit
a collateral bond or irrevocable letter of credit.
(3) Bond requirements
The Secretary shall, by regulation, prescribe the
amount, terms, and conditions of such bond.
(4) Forfeiture
If the Secretary finds that such store or concern has
accepted and redeemed coupons in violation of this
chapter after furnishing such bond, such store or
concern shall forfeit to the Secretary an amount of
such bond which is equal to the value of coupons
accepted and redeemed by such store or concern in
violation of this chapter.
(5) Hearing

6b

A store or concern described in paragraph (4) may
obtain a hearing on such forfeiture pursuant to
section 2023 of this title.
(e) Transfer of ownership; penalty in lieu of
disqualification period; fines for acceptance of
loose coupons; judicial action to recover penalty
or fine
(1) In the event any retail food store or wholesale
food concern that has been disqualified under
subsection (a) is sold or the ownership thereof is
otherwise transferred to a purchaser or transferee, the
person or persons who sell or otherwise transfer
ownership of the retail food store or wholesale food
concern shall be subjected to a civil penalty in an
amount established by the Secretary through
regulations to reflect that portion of the
disqualification period that has not yet expired. If the
retail food store or wholesale food concern has been
disqualified permanently, the civil penalty shall be
double the penalty for a ten-year disqualification
period, as calculated under regulations issued by the
Secretary. The disqualification period imposed under
subsection
(b) shall continue in effect as to the person or
persons who sell or otherwise transfer ownership of
the retail food store or wholesale food concern
notwithstanding the imposition of a civil penalty
under this subsection.

7b

(2)
At any time after a civil penalty imposed under
paragraph (1) has become final under the provisions
of section 2023(a) of this title, the Secretary may
request the Attorney General to institute a civil action
against the person or persons subject to the penalty in
a district court of the United States for any district in
which such person or persons are found, reside, or
transact business to collect the penalty and such court
shall have jurisdiction to hear and decide such action.
In such action, the validity and amount of such
penalty shall not be subject to review.
(3)
The Secretary may impose a fine against any
retail food store or wholesale food concern that
accepts food coupons that are not accompanied by
the corresponding book cover, other than the
denomination of coupons used for making change as
specified in regulations issued under this chapter. The
amount of any such fine shall be established by the
Secretary and may be assessed and collected in
accordance with regulations issued under this chapter
separately or in combination with any fiscal claim
established by the Secretary. The Attorney General of
the United States may institute judicial action in any
court of competent jurisdiction against the store or
concern to collect the fine.
(f) Fines for unauthorized acceptance

8b

The Secretary may impose a fine against any person
not approved by the Secretary to accept and redeem
food coupons who violates any provision of this
chapter or a regulation issued under this chapter,
including violations concerning the acceptance of food
coupons. The amount of any such fine shall be
established by the Secretary and may be assessed and
collected in accordance with regulations issued under
this chapter separately or in combination with any
fiscal claim established by the Secretary. The
Attorney General of the United States may institute
judicial action in any court of competent jurisdiction
against the person to collect the fine.
(g) Disqualification of retailers
disqualified under the WIC program
(1) In general

who

are

The Secretary shall issue regulations providing
criteria for the disqualification under this chapter of
an approved retail food store or a wholesale food
concern that is disqualified from accepting benefits
under the special supplemental nutrition program for
women, infants, and children established under
section 1786 of Title 42.
(2) Terms
A disqualification under paragraph (1)-(A)
shall be for the same length of
time as the disqualification from the program
referred to in paragraph (1);

9b

(B) may begin at a later date than the
disqualification from the program referred to in
paragraph (1); and
(C) notwithstanding section 2023 of this title, shall
not be subject to judicial or administrative review.
(h)

Flagrant violations
(1)

In general

The Secretary, in consultation with the Inspector
General of the Department of Agriculture, shall
establish procedures under which the processing of
program benefit redemptions for a retail food store or
wholesale food concern may be immediately
suspended
pending
administrative
action
to
disqualify the retail food store or wholesale food
concern.
(2)

Requirements

Under the procedures described in paragraph (1), if
the Secretary, in consultation with the Inspector
General, determines that a retail food store or
wholesale food concern is engaged in flagrant
violations of this chapter (including regulations
promulgated under this chapter), unsettled program
benefits that have been redeemed by the retail food
store or wholesale food concern-(A) may be suspended; and
(B)(i) if the program disqualification is upheld,
may be subject to forfeiture pursuant to section

10b

2024(g) of this title; or (ii) if the program
disqualification is not upheld, shall be released to the
retail food store or wholesale food concern.
(3) No liability for interest
The Secretary shall not be liable for the value of any
interest on funds suspended under this subsection.
(i) Pilot projects to improve Federal-State
cooperation in identifying and reducing
fraud in the supplemental nutrition
assistance program
(1)

Pilot projects required
(A) In general
The Secretary shall carry out, under such terms
and conditions as are determined by the
Secretary, pilot projects to test innovative
Federal-State
partnerships
to
identify,
investigate, and reduce fraud by retail food
stores and wholesale food concerns in the
supplemental nutrition assistance program,
including allowing States to operate programs to
investigate that fraud.
(B) Requirement
At least 1 pilot project described in
subparagraph (A) shall be carried out in an
urban area that is among the 10 largest urban
areas in the United States (based on population),
if--

11b

(i) the supplemental nutrition assistance
program is separately administered in the area;
and
(ii) if the administration of the supplemental
nutrition assistance program in the area complies
with the other applicable requirements of the
program.
(2)

Selection criteria

Pilot projects shall be selected based on criteria the
Secretary establishes, which shall include-(A)
enhancing existing efforts by the Secretary
to reduce fraud described in paragraph (1)(A);
(B)
requiring participant States to maintain
the overall level of effort of the States at
addressing recipient fraud, as determined by the
Secretary, prior to participation in the pilot project;
(C)
collaborating with other law enforcement
authorities as necessary to carry out an effective
pilot project;
(D)
commitment of the participant State
agency to follow Federal rules and procedures
with respect to investigations described in
paragraph (1)(A); and
(E)
the extent to which a State has committed
resources to recipient fraud and the relative success
of those efforts.
(3)

Evaluation

12b

(A) In general
The Secretary shall evaluate the pilot projects
selected under this subsection to measure the
impact of the pilot projects.
(B) Requirements
The evaluation shall include-(i) the impact of each pilot project on increasing
the capacity of the Secretary to address fraud
described in paragraph (1)(A);
(ii) the effectiveness of the pilot projects in
identifying, preventing and reducing fraud
described in paragraph (1)(A); and
(iii) the cost effectiveness of the pilot projects.
(4)
Report to Congress
Not later than September 30, 2017, the Secretary
shall submit to the Committee on Agriculture of the
House of Representatives and the Committee on
Agriculture, Nutrition, and Forestry of the Senate, a
report that includes a description of the results of each
pilot project, including-(A) an evaluation of the impact of the pilot project
on fraud described in paragraph (1)(A); and
(B) the costs associated with the pilot project.
(5) Funding
Any costs incurred by a State to operate pilot
projects under this subsection that are in excess
of the amount

13b

expended under this chapter to identify,
investigate, and reduce fraud described in
paragraph (1)(A) in the respective State in the
previous fiscal year shall not be eligible for
Federal reimbursement under this chapter.
7 U.S.C. §2023. ADMINISTRATIVE
REVIEW; RESTORATION OF RIGHTS.

AND

JUDICIAL

(a)(1) Whenever an application of a retail food store
or wholesale food concern to participate in the
supplemental nutrition assistance program is denied
pursuant to section 2018 of this title, or a retail food
store or wholesale food concern is disqualified or
subjected to a civil money penalty under the
provisions of section 2021 of this title, or a retail
food store or wholesale food concern forfeits a bond
under section 2021(d) of this title, or all or part of
any claim of a retail food store or wholesale food
concern is denied under the provisions of section
2022 of this title, or a claim against a State agency is
stated pursuant to the provisions of section 2022 of
this title, notice of such administrative action shall
be issued to the retail food store, wholesale food
concern, or State agency involved.
(2) Delivery of notices
A notice under paragraph (1) shall be delivered by any
form of delivery that the Secretary determines will
provide evidence of the delivery.
(3)

If such store, concern, or State agency is

14b

aggrieved by such action, it may, in accordance with
regulations promulgated under this chapter, within
ten days of the date of delivery of such notice, file
a written request for an opportunity to submit
information in support of its position to such person
or persons as the regulations may designate.
(4)
If such a request is not made or if such store,
concern, or State agency fails to submit information
in support of its position after filing a request, the
administrative determination shall be final.
(5)
If such request is made by such store,
concern, or State agency, such information as may
be submitted by the store, concern, or State agency,
as well as such other information as may be
available, shall be reviewed by the person or
persons designated by the Secretary, who shall,
subject to the right of judicial review hereinafter
provided, make a determination which shall be
final and which shall take effect thirty days after the
date of the delivery or service of such final notice
of determination.
(6)
Determinations
regarding
claims
made
pursuant to section 2025(c) of this title (including
determinations as to whether there is good cause for
not imposing all or a portion of the penalty) shall be
made on the record after opportunity for an agency
hearing in accordance with section1 556 and 557 of
Title 5 in which one or more administrative law judges

15b

appointed pursuant to section 3105 of such title shall
preside over the taking of evidence.
(7) Such judges shall have authority to issue and
enforce subpoenas in the manner prescribed in
sections2 499m(c) and (d) of this title and to appoint
expert witnesses under the provisions of Rule 706 of
the Federal Rules of Evidence.
(8) The Secretary may not limit the authority of
such judges presiding over determinations regarding
claims made pursuant to section 2025(c) of this title.
(9) The Secretary shall provide a summary
procedure for determinations regarding claims
made pursuant to section 2025(c) of this title in
amounts less than
$50,000.
(10) Such summary procedure need not include an
oral hearing.
(11) On a petition by the State agency or sua sponte,
the Secretary may permit the full administrative
review procedure to be used in lieu of such summary
review procedure for a claim of less than $50,000.
(12) Subject to the right of judicial review hereinafter
provided, a determination made by an administrative
law judge regarding a claim made pursuant to section
2025(c) of this title shall be final and shall take effect
thirty days after the date of the delivery or service of
final notice of such determination.
(13) If the store, concern, or State agency feels
aggrieved by such final determination, it may obtain

16b

judicial review thereof by filing a complaint
against the United States in the United States court
for the district in which it resides or is engaged in
business, or, in the case of a retail food store or
wholesale food concern, in any court of record of
the State having competent jurisdiction, within
thirty days after the date of delivery or service of
the final notice of determination upon it,
requesting the
determination.

court

to

set

aside

such

(14) The copy of the summons and complaint
required to be delivered to the official or agency
whose order is being attacked shall be sent to the
Secretary or such person or persons as the Secretary
may designate to receive service of process.
(15) The suit in the United States district court or
State court shall be a trial de novo by the court in
which the court shall determine the validity of the
questioned administrative action in issue, except that
judicial review of determinations regarding claims
made pursuant to section 2025(c) of this title shall
be a review on the administrative record.
(16)

If

the

court

determines

that

such

administrative action is invalid, it shall enter such
judgment or order as it determines is in accordance
with the law and the evidence.
(17) During the pendency of such judicial review,
or any appeal therefrom, the administrative action
under review shall be and remain in full force and

17b

effect, unless on application to the court on not less
than ten days' notice, and after hearing thereon and a
consideration by the court of the applicant's likelihood
of prevailing on the merits and of irreparable injury,
the court temporarily stays such
administrative
action pending disposition of such trial or appeal.
(18)
Suspension of stores pending
review Notwithstanding
any other
provision
of
this subsection,
any permanent disqualification of a retail food store
or wholesale food concern under paragraph
(3) or (4) of section 2021(b) of this title shall be
effective from the date of receipt of the notice of
disqualification. If the disqualification is reversed
through administrative or judicial review, the
Secretary shall not be liable for the value of any sales
lost during the disqualification period.
(b) In any judicial action arising under this chapter,
any allotments found to have been wrongfully
withheld shall be restored only for periods of not more
than one year prior to the date of the commencement
of such action, or in the case of an action seeking
review of a final State agency determination, not
more than one year prior to the date of the filing of a
request with the State for the restoration of such
allotments or, in either case, not more than one year
prior to the date the State agency is notified or
otherwise discovers the possible loss to a
household.

18b

7 C.F.R. §271.2. DEFINITIONS
(Pertinent Language Only)
Trafficking means:
(1) The buying, selling, stealing, or otherwise
effecting an exchange of SNAP benefits issued and
accessed via Electronic Benefit Transfer (EBT)
cards, card numbers and personal identification
numbers (PINs), or by manual voucher and signature,
for cash or consideration other than eligible food,
either directly, indirectly, in complicity or collusion
with others, or acting alone;
(2) The exchange of firearms, ammunition,
explosives, or controlled substances, as defined in
section 802 of title 21, United States Code, for SNAP
benefits;
(3) Purchasing a product with SNAP benefits that
has a container requiring a return deposit with the
intent of obtaining cash by discarding the product
and returning the container for the deposit amount,
intentionally discarding the product, and
intentionally returning the container for the deposit
amount;
(4) Purchasing a product with SNAP benefits with
the intent of obtaining cash or consideration other
than eligible food by reselling the product, and
subsequently intentionally reselling the product
purchased with SNAP benefits in exchange for cash
or consideration other than eligible food; or

19b

(5) Intentionally purchasing products originally
purchased with SNAP benefits in exchange for cash or
consideration other than eligible food.
(6) Attempting to buy, sell, steal, or otherwise affect
an exchange of SNAP benefits issued and accessed
via Electronic Benefit Transfer (EBT) cards, card
numbers and personal identification numbers (PINs),
or by manual voucher and signatures, for cash or
consideration other than eligible food, either directly,
indirectly, in complicity or collusion with others, or
acting alone.
7 C.F.R. §278.6(1)-(d)(7). DISQUALIFICATION OF
RETAIL
FOOD STORES AND
WHOLESALE
FOOD CONCERNS, AND
OF CIVIL
IMPOSITION
MONEY
PENALTIES IN LIEU OF DISQUALIFICATIONS
(Language Pertaining to Disqualifications for SNAP
Violations Only)
(a) Authority to disqualify or subject to a civil money
penalty. FNS may disqualify any authorized retail
food store or authorized wholesale food concern from
further participation in the program if the firm fails to
comply with the Food and Nutrition Act of 2008, as
amended, or this part. Such disqualification shall
result from a finding of a violation on the basis of
evidence that may include facts established through
on-site investigations, inconsistent redemption data,
evidence obtained through a transaction report under

20b

an electronic benefit transfer system, or the
disqualification of a firm from the Special
Supplemental Nutrition Program for Women, Infants
and Children (WIC), as specified in paragraph (e)(8) of
this section. Disqualification shall be for a period of 6
months to 5 years for the firm's first sanction; for
period of 12 months to 10 years for a firm's second
sanction; and disqualification shall be permanent for
a disqualification based on paragraph (e)(1) of this
section. Any firm which has been disqualified and
which wishes to be reinstated at the end of the period
of disqualification, or at any later time, shall file a new
application under § 278.1 so that FNS may determine
whether
reauthorization
is
appropriate.
The
application may be filed no earlier than 10 days before
the end of the period of disqualification. FNS may, in
lieu of a disqualification, subject a firm to a civil
money penalty of up to an amount specified in §
3.91(b)(3)(i) of this title for each violation if FNS
determines that a disqualification would cause
hardship to participating households. FNS may
impose a civil money penalty of up to an amount
specified in § 3.91(b)(3)(ii) of this title for each
violation in lieu of a permanent disqualification for
trafficking, as defined in § 271.2 of this chapter, in
accordance with the provisions of paragraphs (i) and
(j) of this section.
(b)

Charge letter—

21b

(1)
General provisions. Any firm considered for
disqualification or imposition of a civil money
penalty under paragraph (a) of this section or a fine
as specified under paragraph (l) or (m) of this section
shall have full opportunity to submit to FNS
information, explanation, or evidence concerning any
instances of noncompliance before FNS makes a final
administrative determination. The FNS regional
office shall send the firm a letter of charges before
making such determination. The letter shall specify
the violations or actions which FNS believes
constitute a basis for disqualification or imposition of
a civil money penalty or fine. The letter shall specify
the violations or actions which FNS believes
constitute a basis for disqualification or imposition of
a civil money penalty. The letter shall inform the firm
that it may respond either orally or in writing to the
charges contained in the letter within 10 days of
receiving the letter. The firm's response shall set forth
a statement of evidence, information, or explanation
concerning the specified violations or acts. The firm
shall make its response, if any, to the officer in charge
of the FNS field office which has responsibility for the
project area in which the firm is located. In the case
of a firm for which action is taken in accordance with
paragraph (e)(8) of this section, the charge letter
shall inform such firm that the

22b

disqualification action is not subject to administrative
or judicial review, as specified in paragraph (e)(8) of
this section.
(2) Charge letter for trafficking.
(i)

The charge letter shall advise a firm being

considered for permanent disqualification based on
evidence of trafficking as defined in §
271.2 that the firm must notify FNS if the firm
desires FNS to consider the sanction of a civil money
penalty in lieu of permanent disqualification. The
charge letter shall also advise the firm that the
permanent disqualification shall be effective
immediately upon the date of receipt of the notice of
determination, regardless of whether a request for
review is filed in accordance with part 279 of this
chapter. If the disqualification is reversed through
administrative or judicial review, the Secretary shall
not be liable for the value of any sales lost during the
disqualification period. Firms that request and are
determined eligible for a civil money penalty in lieu
of permanent disqualification for trafficking may
continue to participate in the program pending review
and shall not be required to pay the civil money
penalty pending
appeal
of
the
trafficking
determination action.

23b

(ii)
Firms that request consideration of a civil
money penalty in lieu of a permanent disqualification
for trafficking shall have the opportunity to submit to
FNS information and evidence as specified in §
278.6(i), that establishes the firm's eligibility for a
civil money penalty in lieu of a permanent
disqualification in accordance with the criteria
included in § 278.6(i). This information and evidence
shall be submitted within 10 days, as specified in §
278.6(b)(1).
(iii)
If a firm fails to request consideration for a
civil money penalty in lieu of a permanent
disqualification for trafficking and submit
documentation and evidence of its eligibility within
the 10 days specified in § 278.6(b)(1), the firm shall
not be eligible for such a penalty.
(c)
Review of evidence. The letter of charges, the
response, and any other information available to FNS
shall be reviewed and considered by the appropriate
FNS regional office, which shall then issue the
determination. In the case of a firm subject to
permanent disqualification under paragraph (e)(1) of
this section, the determination shall inform such a
firm that action to permanently disqualify the firm
shall be effective immediately upon the date of receipt
of the notice of determination from FNS, regardless of
whether a request for review is filed in accordance

24b

with part 279 of this chapter. If the disqualification is
reversed through administrative or judicial review,
the Secretary shall not be liable for the value of any
sales lost during the disqualification period. Firms
that request and are determined eligible to a civil
money penalty in lieu of permanent disqualification
for trafficking may continue to participate in the
program pending review and shall not be required to
pay the civil money penalty pending appeal of the
trafficking determination action. In the case of a firm
for which action is taken in accordance with
paragraph (e)(8) of this section, the determination
notice shall inform such firm that the disqualification
action is not subject to administrative or judicial
review, as specified in paragraph (e)(8) of this section.
(d)
Basis for determination. The FNS regional
office making a disqualification or penalty
determination shall consider:
(1)
The nature and scope of the violations
committed by personnel of the firm,
(2)
Any prior action taken by FNS to warn the firm
about the possibility that violations are occurring, and
(3)
Any other evidence that shows the firm's intent
to violate the regulations.
(e)
Penalties. FNS shall take action as follows
against any firm determined to have violated the
Act or regulations. For the purposes of assigning a
period of

25b

disqualification, a warning letter shall not be
considered to be a sanction. A civil money penalty and
a disqualification shall be considered sanctions for
such purposes. The FNS regional office shall:
(1)

Disqualify a firm permanently if:

(i)
Personnel of the firm have trafficked as
defined in § 271.2; or
(ii)
Violations such as, but not limited to, the
sale of ineligible items occurred and the firm had
twice before been sanctioned.
(iii)
It is determined that personnel of the firm
knowingly submitted information on the
application that contains false information of a
substantive nature that could affect the eligibility
of the firm for authorization in the program, such
as, but not limited to, information related to:
(A)
Eligibility requirements under § 278.1(b),
(c), (d), (e), (f), (g) and (h);
(B)
Staple food stock;
(C)
Annual gross sales for firms seeking to
qualify for authorization under Criterion B as
specified in the Food and Nutrition Act of
2008, as amended;
(D)
(E)

Annual staple food sales;
Total annual gross retail food sales for

firms seeking authorization as co-located
wholesale/retail firms;

26b

(F)

Ownership of the firm;

(G)
Employer Identification Numbers and
Social Security Numbers;
(H)
SNAP history, business practices,
business ethics, WIC disqualification or
authorization status, when the store did (or will)
open for business under the current ownership,
business, health or other licenses, and whether
or not the firm is a retail and wholesale firm
operating at the same location; or
(I)
Any other information of a substantive
nature that could affect the eligibility of a firm.
(2)
Disqualify the firm for 5 years if it is to be
the firm's first sanction, the firm had been
previously advised of the possibility that violations
were occurring and of possible consequences of
violating the regulations, and the evidence shows
that:
(i) It is the firm's practice to sell expensive or
conspicuous nonfood items, cartons of cigarettes,
or alcoholic beverages in exchange for food
coupons; or
(ii) The firm's coupon redemptions for a
specified period of time exceed its food sales for
the same period of time; or
(iii) A wholesale food concern's redemptions of
coupons for a specified period of time exceed the

27b

redemptions of all the specified authorized retail
food stores, nonprofit cooperative foodpurchasing ventures, group living arrangements,
drug addict and alcoholic treatment programs,
homeless meal providers, and shelters for
battered women and children which the
wholesale food concern was authorized to serve
during that time; or
(iv) A wholesale food concern's stated
redemptions of coupons for a particular retail
food store, nonprofit cooperative foodpurchasing venture, group living arrangement,
drug addict and alcoholic treatment program,
homeless meal providers, or shelters for battered
women and children exceeded the actual amount
of coupons which that firm or organization
redeemed through the wholesaler; or
(v) Personnel of the firm knowingly accepted
coupons from an unauthorized firm or an
individual known not to be legally entitled to
possess coupons.
(3)
Disqualify the firm for 3 years if it is to be
the first sanction for the firm and the evidence
shows that:
(i) It is the firm's practice to commit violations
such as the sale of common nonfood items in
amounts normally found in a shopping basket

28b

and the firm was previously advised of the
possibility that violations were occurring and of
the possible consequences of violating the
regulations; or
(ii) Any of the situations described in paragraph
(e)(2) of this section occurred and FNS had not
previously advised the firm of the possibility
that violations were occurring and of the
possible consequences of violating the
regulations; or
(iii) The firm is an authorized communal dining
facility, drug addiction or alcoholic treatment
and rehabilitation program, group living
arrangement, homeless meal provider, meal
delivery service, or shelter for battered women
and children and it is the firm's practice to sell
meals in exchange for food coupons to persons
not eligible to purchase meals with food
coupons and the firm has been previously
advised of the possibility that violations were
occurring and of the possible consequences of
violating the regulations; or
(iv) A wholesale food concern accepted coupons
from an authorized firm which it was not
authorized to serve and the wholesale food
concern had been previously advised of the
possibility that violations were occurring and of

29b

possible consequences
regulations; or

of

violating

the

(v) The firm is an authorized retail food store
and personnel of the firm have engaged in food
coupon transactions with other authorized retail
stores, not including treatment programs, group
living arrangements, homeless meal providers,
or shelters for battered women and children, and
the firm had been previously advised of the
possibility that violations were occurring and of
the possible consequences of violating the
regulations.
(vi) Personnel of the firm knowingly submitted
information on the application that contained
false information of a substantive nature
related to the ability of FNS to monitor
compliance of the firm with FSP requirements,
such as, but not limited to, information related
to:
(A) Annual eligible retail food sales;
(B) Store location and store address and
mailing address;
(C) Financial institution information; or
(D) Store name, type of ownership, number
of cash registers, and non-food inventory and
services.
(4)

Disqualify the firm for 1 year if:

30b

(i)
It is to be the first sanction for the firm and
the ownership or management personnel of the
firm have committed violations such as the sale of
common nonfood items in amounts normally
found in a shopping basket, and FNS had not
previously advised the firm of the possibility that
violations were occurring and of the possible
consequences of violating the regulations; or
(ii) The firm has accepted SNAP benefits in
payment for items sold to a household on credit.
(5)
Disqualify the firm for 6 months if it is to be
the first sanction for the firm and the evidence shows
that personnel of the firm have committed violations
such as but not limited to the sale of common
nonfood items due to carelessness or poor supervision
by the firm's ownership or management.
(6)
Double the appropriate period of
disqualification prescribed in paragraphs (e) (2)
through (5) of this section as warranted by the
evidence of violations if the same firm has once
before been assigned a sanction.
(7)
Send the firm a warning letter if violations
are too limited to warrant a disqualification.

